No. 20-

 

 

IN THE

Supreme Court of the United States

PoRT OF CORPUS CHRISTI AUTHORITY
OF NUECES COUNTY TEXAS,
Petitioner,

Vv.

SHERWIN ALUMINA COMPANY, LLC AND
SHERWIN PIPELINE, INC.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,404 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 17, 2020.

A

   

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
